No. 19-1008
In the

Supreme Court of the United States
__________________

JIM C. HODGE, ET AL.,
v.

Petitioners,

UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
David Alan Warrington
Counsel of Record
KUTAK ROCK LLP
901 East Byrd Street
Suite 1000
Richmond, Virginia 23219
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
REPLY OF THE PETITIONERS . . . . . . . . . . . . . . . 1
I.

The FCA requires proof of proximate cause
which requires proof that the harm was both
foreseeable and that the false statement or
fraudulent conduct was a substantial factor
in causing the harm. . . . . . . . . . . . . . . . . . . . . 2

II.

Four other circuits have adopted a proximate
cause standard that has two elements—proof
that (1) the harm was foreseeable and (2) the
false statement or fraudulent conduct was a
substantial factor in causing the harm . . . . . 4

III.

The Fifth Circuit’s new FCA causation
standard is so flexible that it is no standard
at all . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

IV.

The government’s claim that the Petitioner is
seeking to re-litigate the facts of the case is
false—there is no need to re-litigate the facts
as the government has conceded that there
was no evidence linking any false statement
or fraudulent conduct to a loan default . . . . 10

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF AUTHORITIES
CASES
Bridge v. Phoenix Bond & Indemnity Co.,
553 U.S. 639 (2008). . . . . . . . . . . . . . . . . . . . . . . . 6
Gross v. FBL Financial Servs., Inc.,
557 U.S. 167 (2009). . . . . . . . . . . . . . . . . . . . . . . . 2
Paroline v. United States,
572 U.S. 434 (2014). . . . . . . . . . . . . . . . . . . . . . 5, 6
United States v. Eghbal,
548 F.3d 1281 (2008). . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Hibbs,
568 F.2d 347 (3d Cir. 1977) . . . . . . . . 4, 5, 7, 8, 12
United States v. Luce,
873 F.3d 999 (7th Cir. 2017). . . . . . . . . . . . . 4, 5, 6
United States v. Miller,
645 F.2d 473 (5th Cir. 1981). . . . . . . . . . . . . . . . . 8
STATUTES
31 U.S.C. § 3729(a)(1) . . . . . . . . . . . . . . . . . 2, 3, 6, 12

1
REPLY OF THE PETITIONERS
This petition requests certiorari so that this Court
may settle a question that has divided several circuits:
whether the causation standard under the False
Claims Act (FCA) is proximate cause, requiring both
that the harm was foreseeable and that the false
statement or fraudulent conduct was a substantial
factor in causing the harm, or “but for” causation based
solely on the foreseeability of the harm.
The government argues that proximate cause is
such a flexible standard that it is based solely on the
foreseeability of the harm. As such, the government
argues that the decision below is not in conflict with
the other circuits even though those other circuits have
clearly adopted a more stringent proximate cause
standard that required a causal connection between he
conduct at issue and the harm in addition to just
foreseeability. The government further argues that the
proof at trial that a percentage of the loans at issue
were “ineligible” for FHA insurance for whatever
reason, without more, was sufficient to meet this
flexible standard.
This is so even though the
government did not even attempt to connect an alleged
underwriting deficiency or false statement to the
default of a single loan. The government finally argues
that the Petitioners are seeking to re-litigate the
facts—which is not so.
The government is wrong on the required elements
of proximate cause. The Fifth Circuit’s decision
warrants review to resolve this new split between it
and the Third, Seventh, Tenth, and District of
Columbia Circuits.

2
I.

The FCA requires proof of proximate cause
which requires proof that the harm was
both foreseeable and that the false
statement or fraudulent conduct was a
substantial factor in causing the harm.

To hold a person liable under the FCA requires
proof, inter alia, that the government suffered harm in
the form of payment of a claim for money, “because of
the actions of that person.” § 3729(a)(1). As the
government correctly notes, the “phrase ‘because of’
requires the government to prove some form of
causation.” Br. in Opp. 8 (citing Gross v. FBL
Financial Servs., Inc., 557 U.S. 167, 176-177 (2009)).
As explained in the Petition, the Third, Seventh, Tenth,
and District of Columbia Circuits have all adopted a
proximate cause standard that requires proof that the
harm was foreseeable and that the false statement or
fraudulent conduct was a substantial factor in causing
the harm. Pet. 14-19. In those circuits, the alleged
underwriting deficiency or false statement must be a
substantial factor in a loan’s default.
As the Petition noted, the Fifth Circuit’s decision
below was based on a causation standard that required
only that the harm be foreseeable because, according to
the Fifth Circuit, it was not feasible to connect false
statements and defaults with specific loans “in a case
that relies on sampling and extrapolation, as does this
one.” Pet. Ap. 9-10. Not only is that reasoning faulty,
the resulting foreseeability alone standard places the
Fifth Circuit in conflict with four other circuits. Pet.
14-22. Furthermore, the government’s position renders
the FCA’s requirement that the harm result “because

3
of the actions of that person” superfluous. 31 U.S.C.
§ 3729(a)(1).
In its response, the government concedes that there
was no evidence of any connection between any
allegedly false statement or fraudulent conduct by the
Petitioners and any loan default. Br. in Opp. 7.
According to the government, that was because,
according to the Fifth Circuit, it was impossible to
connect any loan default to a particular false statement
or fraudulent conduct because this case involved
sampling and extrapolation. Br. in Opp. 7. The
government argues that such a connection was
unnecessary because proximate cause is such a flexible
concept that in a quasi-criminal case the government
can rely on the simple fact that if a loan was ineligible
for FHA insurance, then Petitioners are liable under
the FCA for any subsequent default, regardless of the
reason for the default. Br. in Opp. 10-11. In other
words, if a loan was ineligible for FHA insurance
because the loan was originated from an unregistered
branch, or recklessly underwritten, and the homeowner
died causing the loan to default, the Petitioners were
liable under the FCA. This post hoc ergo propter hoc
(after the thing because of the thing) logic is faulty and
inconsistent with any recognized concept of proximate
cause.

4
II.

Four other circuits have adopted a
proximate cause standard that has two
elements—proof that (1) the harm was
foreseeable and (2) the false statement or
fraudulent conduct was a substantial
factor in causing the harm.

The government misunderstands the concept of
proximate cause. As explained in the Petition,
proximate cause requires both that the harm was
foreseeable and that the false statement or fraudulent
conduct was a substantial factor in causing the harm.
Pet. 18-20. Following the Third Circuit’s application of
the proximate cause standard to claims made under
the FCA in its decision in United States v. Hibbs, 568
F.2d 347 (3d Cir. 1977), the Seventh, Tenth, and
District of Columbia circuits have settled on a
proximate cause standard requiring both foreseeability
and causality.1 Id.
As well explained by the Seventh Circuit,
“[p]roximate cause encompasses both cause-in-fact and
legal cause.” United States v. Luce, 873 F.3d 999, 1013
(7th Cir. 2017).
Legal cause focuses on the
foreseeability of the harm. Id. Cause-in-fact, by
contrast, requires proof that the alleged misconduct
was a “material and substantial factor in bringing
about the injury.” Id. (citations omitted). Both Hibbs

1

The Ninth Circuit discussed both standards in United States v.
Eghbal, 548 F.3d 1281, 1284-1285 (2008), but because it found that
the conduct at issue in that case satisfied both “but for” and the
more stringent proximate cause standard it did not adopt either as
a clear causation standard.

5
and Luce involved FCA claims related to the FHA
mortgage insurance program just as do the claims in
this case. And each of the cases required proof of
(1) legal cause and (2) cause-in-fact to satisfy the FCA’s
causation standard.
The facts in Hibbs are analogous to the facts of this
case. There, the government sued a real estate broker
who furnished false information regarding the
condition of homes that received FHA insured
mortgages.
Like here, when those mortgages
defaulted, the government sough liability under the
FCA. According to the government, Hibbs was liable
simply because he made false statements regarding the
homes’ condition: “had Hibbs not furnished the false
certifications, [FHA] would not have insured the
mortgages and therefore would not have been called
upon to make any payment” when those mortgages
later defaulted. Hibbs, 568 F.2d at 351.
In its opposition, the government argued that the
Fifth Circuit’s decision below was correct, because it
was foreseeable that loans that were originated from
unregistered branches or recklessly underwritten
would default at higher rates and the actual cause of
the default did not matter because proximate cause is
such a flexible concept that liability could be sustained
on foreseeability alone. Br. in Opp. 9. That is wrong.
Even the leading case cited by the government,
Paroline v. United States, 572 U.S. 434, 444-445 (2014),
is at odds with that proposition.
According to the government, “[p]roximate cause is
a flexible concept that does not lend itself to a blackletter rule that will dictate the result in every case.”

6
Br. in Opp. 9 (quoting Bridge v. Phoenix Bond &
Indemnity Co., 553 U.S. 639, 654 (2008)). But that
flexibility does not obviate the need to prove both legal
cause and cause-in-fact. As explained in Paroline:
While “[e]very event has many causes…only some of
them are proximate, as the law uses that term.” 572
U.S. at 444.
While proximate cause might be a “flexible concept,”
it is not a Gumby doll. There must still be some direct
relation between the injurious conduct and the
resulting harm. Id. Neither Paroline nor Bridge
remove the required nexus between the conduct and
harm. This is the cause-in-fact requirement described
in Luce and, as noted by this Court in Paroline,
prevents “liability in situations where the causal link
between the conduct and result is so attenuated that
the consequence is more aptly described as a mere
fortuity.” Id. at 445. Absent this causal link, liability
under the FCA is untethered to the actual “because of”
statutory language of § 3729(a)(1).
The government incorrectly reads the statement in
Paroline that proximate cause is “often explicated…in
terms of foreseeability or the scope of the risk created
by the predicate conduct.” Br. in Opp. 9. The fact that
proximate cause is often explicated, which simply
means to be analyzed, in terms of foreseeability does
not mean that foreseeability alone can satisfy the
proximate cause standard. To explicate proximate
cause does not mean one can discard its constituent
parts, i.e. the elements of foreseeability and cause-infact.

7
The government argues that proximate cause is
such a flexible concept that it can satisfy the FCA’s
causation requirement solely based on evidence that
certain loans were falsely certified as eligible for FHA
insurance.
Br. in Opp. 9.
The error in the
government’s argument is well explained by the Third
Circuit in Hibbs:
We are unable to accept this argument because
it ignores the statute’s [FCA] restrictive
language “by reason of.” The damages were
sustained by the United States because of
defaults of the mortgagors and to some extent
were increased by the unexpected diminution of
property value caused by the lead paint
injunction. Neither of those events was caused
by or related to the false certifications. Indeed,
precisely the same loss would have been suffered
by the government had the certifications been
accurate and truthful.
To further illustrate the extreme to which the
government’s argument would lead if the
mortgagors had defaulted because their houses
had been destroyed by a flood or some other
uninsured catastrophe, the government’s theory
would nevertheless hold Hibbs liable because he
failed to call attention to defects in the
plumbing.
Hibbs, 568 F.2d at 351.
Thus,
even if the originating branch had been properly
registered and/or if the loan file been perfectly

8
underwritten, if the borrower died and the loan
went into default, the government would have
suffered the same loss. The false branch
identification numbers and the underwriting
flaws the government complained of in this case
therefore could not be the proximate cause of the
government’s losses in those instances.
Pet. 21.
III.

The Fifth Circuit’s new FCA causation
standard is so flexible that it is no standard
at all.

The decision below crafted a new FCA causation
standard to fit the facts of the case, rather than apply
the actual facts of the case to its own settled precedent.
As noted in the Petition, nearly forty years ago the
Fifth Circuit expressly adopted the Third Circuit’s
holding and reasoning from Hibbs. Pet. 16. In United
States v. Miller, the Fifth Circuit held that the
government must prove “causation between the false
statements and the loss” and that “[i]n the context of
a federal housing case, the United States must
show that the false statements in the application
were the cause of subsequent defaults.” 645 F.2d
473, 475-476 (5th Cir. 1981) (emphasis added). The
Fifth Circuit has now repudiated that holding.
The government argues that the United States does
not have to show that causal connection between a
false statement in the loan application and the
subsequent default. It is sufficient to show only that
the loan was ineligible for FHA insurance, the actual
cause of the default does not matter. Br. in Opp. 10

9
(“the government was not required to ‘connect[] specific
false statements to individual defaults’”). In fact,
according to decision below, it could not make those
connections because the government had “relie[d] on
sampling and extrapolation.” Pet. App. 9. In other
words, the government was relieved of its burden to
prove an essential element of its claim because it chose
to rely on sampling and extrapolation.
Until its decision below, the Fifth Circuit was in
harmony with the other circuits. Pet. 20-22. Now, to
sustain FCA liability in the Fifth Circuit, one need only
prove that the harm was foreseeable—there is no
requirement to link the false statement or fraudulent
conduct with the harm.
Under this new causation standard, mislabeled as
proximate cause, any company or person that does
business with the United States should beware because
any loss suffered by the government, regardless of
whether that company’s or person’s actions were a
cause-in-fact of that loss, they are now on the hook for
those losses. Sell the government a car, if a driver then
drives it off a cliff, seller beware, the United States
Attorney and Department of Justice are looking for
you.

10
IV.

The government’s claim that the Petitioner
is seeking to re-litigate the facts of the case
is false—there is no need to re-litigate the
facts as the government has conceded that
there was no evidence linking any false
statement or fraudulent conduct to a loan
default.

In its opposition, the government also attempts to
mischaracterize the Petitioner’s argument as seeking
to re-litigate the evidence from trial. Br. in Opp. 8, 11.
This is a red herring. There is nothing to re-litigate.
There is no dispute, as the government conceded at
oral argument below that there was no evidence at trial
linking any false statement with a particular loan
default.2 The government concedes the same in its
opposition. Br. in Opp. 7. Indeed, the government’s
expert conceded that he was not even asked to analyze
causation and did not do so. Pet. App. 71-72. He only
retrospectively determined whether a loan was eligible
for FHA mortgage insurance. Pet. App. 17-19. The
government took its expert’s eligibility analysis and
used it as its sole evidence for causation. According to
the government that was enough.
The government failed to identify a single false
statement regarding a borrower’s ability to repay a
loan such as falsely stating a borrower’s income. The
government did not even look for false statements
regarding the borrower’s ability to pay in its
2

Available at: http://www.ca5.uscourts.gov/OralArgRecordings/17/
17-20720_3-11-2019.mp3 minute 38:04-39:10 (last accessed
6/7/2020).

11
unregistered branch case. Rather, the expert stated
that his “goal was to identify the number of loans on
which HUD paid claims where loans originated from
these unregistered branches.” C.A. ROA 17072. When
asked if he had “any reason to believe that an insured
loan defaulted because of the [false] branch number
that Allied put in Box 13 of a Form 92900-A.” C.A.
ROA.17770. He admitted that “I’ve not analyzed that.”
C.A. ROA.17770.
Nor did any of the other
government’s experts. See C.A. ROA 15227; 15240;
15255-56. False branch identification numbers have
nothing to do with a borrower’s ability to repay.
Furthermore, there was no identified false
statement regarding a borrower’s ability to repay the
loan identified in the reckless underwriting part of the
government’s case which focused on technical quibbles
with HUD underwriting guidelines and missing
documents in loan files—the expert just re-underwrote
the loans according to his understanding of HUD
guidelines. Pet. App. 17-18. He did not look at falsity
of any statement within the loan file, he merely
performed an analysis of whether the loan was eligible
for FHA insurance.
As noted in the Petition, the only evidence
regarding the cause-in-fact of any loan default is found
in the Early Payment Default Audits that listed causes
for default such as death of borrower and loss of job or
income. See e.g. Pet. App. G. Furthermore, the
government never put on any evidence that any
deficiency in a loan file led to a loan default.
Thus, there is no need to re-litigate any of the facts
as it is conceded that the government’s sole evidence at

12
trial for causation was that there were loans originated
from some of the Petitioners’ branch offices that were
unregistered with HUD and loans that were recklessly
underwritten and that those loans were therefore
ineligible for FHA insurance. The decision below
ratified the government’s view of the law that held that
when those loans later defaulted, regardless of the
reason for the default, the defendants were liable for
treble damages under the FCA. This was error.
Absent a causal connection between the Petitioners’
false statement or fraudulent conduct, the Fifth
Circuit’s decision is inconsistent with the requirement
that the harm arise “because of the actions of that
person” (§ 3729(a)(1)) to sustain liability under the
FCA. There is a split among the circuits and the Fifth
Circuit created it with its decision below.
CONCLUSION
The Petition asks the Court to resolve an
exceedingly important question: what is the proper
standard of causation under the False Claims Act? The
government argues that the “Petitioner has not
identified any court of appeals decision finding
evidence similar to that presented here insufficient to
support a damages award under the FCA” and that
absent such a case, review is not warranted. The
government is wrong, the Third Circuit’s decision in
Hibbs is squarely on point factually with the
government’s evidence here. Pet. 15-16. Review is
warranted to prevent different results based on the
same conduct in different circuits because of different
causation standards.
Review is warranted and
particularly important to those individuals and

13
corporations that are subject to the sledgehammer of
the FCA’s treble damages.
Respectfully submitted,
David Alan Warrington
Counsel of Record
KUTAK ROCK LLP
901 East Byrd Street
Suite 1000
Richmond, Virginia 23219
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioners

